No. :

9.(D)a

(1
:

Ei \‘ Li Wj B u \j U' Kb

IN

SUPREME

THE

COURT

UNITED

OF

THE

STATES

Michael N. Kelsey, J.D. -- Petitioner
vs.
The State of New York -- Respondent
ON PETITION FOR A WRIT OF CERTIORARI TO
NEW YORK STATE COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Michael N. Kelsey, J.D.
Petitioner Pro Se
16A4286 Hudson Correctional
50 East Court Street
Hudson, NY 12534

filed
feb n ®

QUESTIONS PRESENTED FOR REVIEW
I.

Are New York State's criminal appellateprocedures deficient,
and/or prejudicial to a criminal defendant's due process,
equal protection and/or state-granted right to appeal when the
state appellate procedures require that factual challenges to
the conviction precede a direct appeal by a post-conviction
motion, and the sentencing judge advises a defendant of his
right to appeal but not the right to a factual challenge via
the post-conviction motion such that the Petitioner should
be granted a new appeal?

II.

Did Appellate Counsel's failure to expand the record prior to
filing an appeal deprive the Petitioner of effective assistance
of counsel, and did New York State Courts inhospitably deny
Petitioner his right to appeal when state law and procedures
unduly complicate the right to appeal a criminal conviction by
relegating factual challenges to the post-conviction motion,
such that Petitioner is entitled to a new appeal?

III.

Did the New York State courts inhospitablyywithhold from the
Petitioner the presumptionsof correctness due him by federal
law, and/or otherwise unreasonably/deny the Petitioner due pro­
cess and/or his right to appeal by denying his petition for,a
writ of error seeking to vacate his appeal deniaL.and proceed
first with a motion to expand the record that ineffective appel­
late counsel denied him, such that Petitioner is entitled to
a new appeal with the opportunity to first expand the record?

IV.

Are New York State's appellate procedures, as written or as
applied, inadequate or ineffective to protect and safeguard a
criminal defendant's right to appeal and/or due process or
equal protection when, as here, the state court refused to
deploy its statutory fact-finding authority/discretion to con­
sider the Petitioner's timely filed and served pro se supple­
mental brief and/or failed to investigate its factual conten­
tions that the appeal was proceeding on "errors and omissions,"
such that the Petitioner should be granted a new appeal and/or
in keeping with state precedent that a hearing be held to det­
ermine if a new trial should be ordered?

V.

Did Respondent State's appellate court commit constitutional
injury to the' Petitioner and/or abuse its discretion to make
factual findings when it irrationally affirmed the verdict ahd
ex post facto superimposed its three-years-after-the-fact reaspning to cure a fatal defect in the trial transcript instead of
ordering a new trial, such that Petitioner is entitled to a new
trial and/or new appeal?

Page i

VI.

such testimony) should be overturned and/or are the Respondent
State s appellate court's failures to evaluate the harmful effects of such testimony in Petitioner's trial as required by
tederal law grounds to order a new appeal for the Petitioner?
VII.

Was Petitioner's claims to ineffective trial counsel and ineff-

ty III

si^sLltsiLsired

him to a new appeal, and/or is New York State's preference for
its own distinctive state standard for evaluating ineffective
claims to the exclusion of the federal STRICKLAND V;-.WASHINGTON
standard delaying the detection of ineffective counsel and also
thereby withholding meaningful appellate review to criminal
r.?SJolantS in violation of the Constitution;^ guarantees to due
DSnisbmpnf^?1 P1701®0^011* and in prolonging cruel and unusual
punishment if wrongfully convicted as a result of ineffective
counsel such that federal habeas relief should be made available
° criminal appellants even prior to the exhaustion of state
remedies?
VIII.

Does a State s claim to offer the.ifight of appeal to criminal
defendants
.
as New York purports to do -- require that the
state maintain procedures, processes, standards, presumptions of
to a|enfte co^^anS
0‘?
and effectiveness such that when a series of state failures to
protect an appellant s appellate rights can be demonstrated —
as herein presented — that the Appellant should thereby be
permitted to bypass the exhaustion of state remedies and immed£ access federal review of ;his claims under federal habeas
fn?er a default theory that when a state fails to provide
meaningful appellate review that such default Cancels out the
state remedy exhaustion requirement in.deference to the consti­
tutional rights of the appellant and/or a federal recognition of
be
a?P5al ?UGh ?hat Petitioner's conviction should
be stayed pending a federal review of his claims?

IX.

Does a criminal appellant s due process rights to a trial transcript and/or the Respondent State's declared right to an appeal
mandate thattNew York courts implement and enforce policies that
assure that appellants will be provided full and complete records
f criminal proceedings by which accurate and complete appeals
may be taken, such that New York's failures and that of the trial
court to provide Petitioner with a full transcript requires tlat
e trial verdict and all judicial decisions subsequently relying
upon it be vacated and that the Petitioner be granted a new trial?

Page ii

LIST OF PARTIES
A[ll parties appear in the caption ^of the case on the cover page.
Service upon the Respondent has been effected upon the New York State
Attorney General.
LIST OF RELATED CASES
PEOPLE V. KELSEY, Application for Leave to appeal the denial of a
pro se CPL 440.10 motion judged to be procedurally defaulted as not raised
on direct appeal. Exhibits relating to this action can be found in the
Appendix under CIO, Cll, A6, and C2 (in chronological order). Petitioner's
Leave application is scheduled to be heard by the NYS Supreme Court,
Appellate Division, Third Department on 2 March 2021. Should the decision
be negative a second petition for a writ of certiorari or a supplemental
brief will follow raising issues relating to the trial.
KELSEY V. LEWIN, Index # 16417-20, NYS Supreme Court, Columbia. County
is a state habeas corpus filing for which the writ has been granted and
a hearing scheduled for 5 March 2021. The Petition can be browsed in App­
endix D7. This constitutional challenge to the statutes governing the
conviction will leave in place two misdemeanor convictions, such that even
if.the Petitioner is released from custody on 3/5/21 this Petition for
writ of certiorari will remain viable as it relates to the two misdemeanor
convictions.
KELSEY V. LEWIN, Index #: 9.-20-CV-01211-LEK, US District Court, Nor­
thern New York District. This was/is a federal habeas corpus claim that
was dismissed without prejudice in December 2020 as state remedies remain
(decision located at Appendix C13).
KELSEY V. HUG, Index # CA2020-00014, NYS Supreme Court, Columbia
County transfered from Oneida County in August 2020 and stayed due to
C0VID-19 impositions on the Court. This petition against Petitioner's
Appellate Counsel can be browsed in Appendix D5.
KELSEY V. DUWE, INDEX #: CA2020-001055, NYS Columbia County Supreme
Court transferred from Oneida County in August 2020 where a summary judg­
ment motion was filed by Petitioner and awaiting a decision from the
Court on six counts of fraud against a police agent leading to Petitioner's
arrest when a judicial stay was imposed due to COVID-19 impositions on
the court. This Petition can be browsed in Appendix D8.
KELSEY V. CATENA, ETC., Index #: CA2020-001577, NYS Supreme Court,
Columbia County transferred from Oneida County in August 2020 and has
been subject to a judicial stay order due to COVID-19 preventing it from
being scheduled.
KELSEY V. ROBAR, ETC., Index #:unknown. Filed in NYS Supreme Court,
Dutchess County in November 2020 and yet to be assigned to a judge.
KELSEY V. RUTLEDGE, Index # unknown. Filed in NYS Supreme Court,
Dutchess County and yet to be assigned a judge. Petition included in App­
endix Dl.
Page iii

TABLE OF AUTHORITIES CITED
Cases (followed by page numbers)
ANDERS V. STATE OF CALIFORNIA, 386 US 738 (1967) -- 39
ABDURRAHAMN V. HENDERSON, 897 F.2d 71 (2nd Cir. 1990) -- 7
BRADLEY V. MEACHUM, 918 F.2d 358 (3rd Cir. 1990) — 20
CAMPBELL V. GREEN, 440 F.supp.2d 125 (2006) -- 18
CIAPRAZI V. SANKOWSKI, 20034WL 23199520 -- 18
CLAUDIO V. SCULLY, 982 F.2d 798 (2nd Cir. 1992) -- 7
CLARK V. STINSON, 214 F.3d 315 (2000) -- 7
EDGINTON V. UNITED STATES, 164 US 361 -- 27
ESKRIDGE V. WASHINGTON - STATE BD, 357 US 214 -- 39
EVITTS V. LUCEY, 469 US 387.(1985) — 7, 16, 31
FRY V. PHILER, 554 US 112 -- 27, 28, 30
ITKIN V. RINGER, 12 Ad.2d 732 (196oj -- 25
GRIFFIN V. ILLINOIS, 351 US 12 (1956) — 6, 34
JOHNSON V. ARTUS, 2010 WL 3377451 -- 28
JOHNSON V. ZARBST, 304 US 458 (1938) — 22
KLIPSCH GROPINEC V. CPRO E-COMMERCE LIMITED, 880 F.3d 620 -- 23
LANE V. BROWN, 372 US 477 (1963) -- 39
LYONS V. GOLDSTEIN, 290 NY 19 (1943) -- 3
MAPES V. COYLE, 171 F.3d 408 (6th Cir. 1999) -- 20
MATTHEWS V. ELDRIDGE,
MAYO V. HENDERSON, 13 F.3d 528 (2nd Cir. 1984) -- 7
MCMANN V. RICHARDSON, 90 S.Ct 1441 - 35
MICHELSON V. UNITED STATES, 335 US 469 -- 27, 28 30
NUNES V. MUELLER, 350 F.2d 1045 (9th Cir. 2003) -- 22
PALIN V. WISEHURT & KOCH, 2002 WL 1033804 (SDNY 2002) -- 36
PEOPLE V. BALDI, 54 NY.2d 137 (1981) — 31, 32, 33
PEOPLE V. BARCHERT, 69 NY.2d 593 (1987) —16
PEOPLE V. BEAKLEY, 69 Ny.2d 490 -- 19
PEOPLE V. BENEVENTO, 91 NY.2d 828 fl985) -- 33
PEOPLE V. BENNETT, 29 NY.2d
20
PEOPLE V. BELL, 161 Ad.2d 772 (2nd Dept. 1990) -- 8
PEOPLE V. BROWN, 382 NE.2d 1149 (1978)-- 8, 20
PEOPLE V. BROWN, 45 NY.2d 852 (1978) -- 9
PEOPLE V. CRIMMINS, 36 NY.2d 230 (1975) -- 20
PEOPLE V. COHEN, 81 NYS.2d 455 -- 3
PEOPLE V. DENNIS, 265 Ad.2d 271 (1991) - 40
PEOPLE V. DIRENZZIO, 14 NY.2d 732 (1964) -- 13, 34
PEOPLE V. DIAZ, 39 NY.2d 457 - 20
PEOPLE V. GILBERT, 295 Ad.2d 275 (1st Dept. 2002). — 4
PEOPLE V. GONZALEZ, 8 Ad.3d 210 (1st Dept. 2004) —
PEOPLE V. GREEN, 9 Ad.3d 687 (3rd Dept. 2004) -- 9
PEOPLE V. HACKETT, 167 Ad.3d 1095 — 32
PEOPLE V. HARRIS, 109 Ad.2d 351 (2nd Dept. 1985) -- 8
PEOPLE V. HARRISON, 85 NY.2d 794 (40) -PEOPLE V. HENDRIX, 8 Ad.3d 72 (1st Dept. 2004) -- 4
PEOPLE V. LOVE, 112 Misc.2d 514 (1982) — 4
PEOPLE V. MARTIN, 52 Ad.2d 988 (3rd Dept. 1976) -- 8
PEOPLE V. MOLONEAUX, 108 NY 264 -- 27 28
PEOPLE V. MONROE, 52 Ad.3d 623 (2008) -- 9
PEOPLE V. MONTES, 265 Ad.2d 195 (1st Dept. 1999) — 11
PEOPLE V. MONTGOMERY, 24 NY.2d 130 (1969) -- 3, 5, 34
Page iv

Cases continued
-PEOPLE—V-.- -P-PK-E^--2-54 -AdvZd—7 27—(-4 th-Dep t“- ~ 19 98 )"“--- 5
PEOPLE V. PIPARO, 134 Ad.2d 295
7
PEOPLE V. PRENTICE, 91 Ad.2d 1202 (4th Dept. 1998) -- 9
PEOPLE V. RHODES, 11 Ad.3d 487 (2d Dept. 2004) -- 4
PEOPLE V. ROBERTS, 89 Ad.2d 912 (2d Dept 1982) -- 8
PEOPLE V. ROMERO, 7 NY.3d 633 -- 19
PEOPLE V. SAXE, 2019 WL 28365322
29
PEOPLE V. SCARINGE, 137 Ad.3d 1409
25
PEOPLE V. SLOAN, 181 Misc. 822 -- 27
PEOPLE V. SORRELL, 108 Ad.3d 787 - 26
PEOPLE V. STULTZ, 2 NY.3d 2777-- 31
PEOPLE V. VANCE, 37 Ad.2d 661 (3rd Dept. 1958 --4
PEOPLE V. WATSON, 14 Ad.3d 419 (1st Dept 2005
- 6, 8
ROE V. FLORES-ORTEGA, 528 US 470 (2000) -- 10, 13, 14, 15, 31
ROSS V. MOFFITT, 417 US 616
39
SAGE REALTY CORP. V. PROSROVER ROSE GOETZ & MENDELLSOHN LLP, 91 NY.2d 30
SMITH V. ROBBINS, 120 S.Ct 746 (2000) -- 22, 34
36
STRICKLAND V. WASHINGTON, 466 US 668~(1984) — 7, 10, 12, 31, 32, 34
TAYLOR V. KUHLMANN, 36 F.Supp.2d 524 (1999) --4
TAYLOR V. MADDOX, 366 F.3d 992 (9th Cir. 2004) -- 22
UNITED STATES V. WALSH, 879 F.3d 530 -- 23
WOOD V. ERCOLE, 644 F.3d 83 (2011) -- 28
XIALOING SHIRLEY HE V. XIAOKANG KU, 130 Ad.3d 1386 (3rd Dept. 2015) -- 7
STATUTES AND RULES (followed by page numbers)
ABA
NYS
NYS
NYS
NYS

Standards for Crim. Justice, 21-2.2(b), 2nd Ed. 1980
9
Criminal Procedure Law Article 440.10 -- 3, 5, 6, 8, 9, 10, 11, 12
Criminal Procedure Law Article 470.15 -- 15, 18, 19, 37
Civil Practice.Laws and Rules Article 5526 -- 8
Codified Rules and Regulations 22 NYCRR 1250.11 -- 17

Page v

TABLE OF CONTENTS
Opinions ~BeT o w

T

Jurisdiction

1

Constitutional and Statutory Provisions Involved

1

Statement of the Case

1

Reasons for Granting the Writ

2

Argument I
New York's Court dystemibreached due process
and*its'own self-imposed duty to advise def­
endants as to their appeal rights when it
failed to instruct petitioner of the post­
conviction motion procedures by which a fair
and adequate appeal could ensue

3

Argument II
Appellate Counsel was ineffective by failing
to expand the record via a 440-motion prior
to filing the appeal; such procedural failure
frustrated Petitioner's constitutional rights

7

v.-

ARGUMENT III
The Respondent State was unreasonable not to
extend to the Petitioner a presumption of
correctness but instead denying Petitioner's
writ of error corum nobis application

12

Argument IV
Respondent State courts frustrated Petitioner's
appellate rights and denied him due process
during the appeal process resulting from inhos­
pitable appellate procedures

17

Argument V
Respondent Appellate Court abused its discretion
while denying due process and equal protection of
the law to Petitioner when ruling "The Record
Shows..." when the record is entirely void of what
it claimed
23
Argument VI
New York State flaunts and disregards federal
law as when Respondent State's use of negative
character testimony in Petitioner's trial was
then and remains unconstitutional

27

Argument VII
Respondent State is ignoring the federal stand­
ard for ineffective assistance of counsel

30

Argument VIII
New York lacks appropriate safeguards for securing
-the rights of-appellants as evidenced by-an~ inab-—
ility to police ineffective assistance of appellate
counsel
34
Argument IX
New York lacks minimum appellate protections at the
trial level including lax and mainpulateable systems
for preserving the trial record
39
Conclusion

40
INDEX TO APPENDICES

Appendix AT:

NYS Court of Appeals 12/28/20 Writ of Error Denial

Appendix A2:

NYS Appellate Division 1/23/20 Writ of Error Denial

Appendix A3:

NYS Court of Appeals 10/15/19 Leave Denial -- Appeal

Appendix A4:

NYS Appellate Division 7/3/19 Denial of Direct Appeal

Appendix A5:

NYS Appellate Division May 2019 Motion Decision

Appendix A6:

NYS Trial Court 6/9/20 Denial of CPL. 440.10 Motion

Appendix A7:

US District Court 12/18/20 Habeas Corpus^Denial

Appendix B1:

NYS Criminal Procedure Law Article 440.10

Appendix B2:

NYS 22 NYCRR 1250.11

Appendix B3:

NYS Criminal Procedure Law Article 470.15

Appendix B4:

NYS Criminal Procedure Law Article 470.05

Appendix Cl:

Petitioner's Nov* 2020 Leave Application to Court:of Appeals

Appendix C2:

Petitioner's July 2020 CPL 440 Leave Application

Appendix C3:

Petitioner's Aug/Nov 2019 Writ of Error Application

Appendix C4:

NYS ADA Opposition Papers Dec. 2019 to Writ of Error
Petition

Appendix C5:

Petitioner's Aug/Sept 2019 Leave Application to Appeal
to Court of Appeals Denial of Direct Appeal

Appendix C6:

Petitioner's April 2019 Pro Se Supplemental Brief
submitted to accompany direct appeal

Appendix C7:

Correspondence between Petitioner and Respondent Courts
regarding Petitioners Pro Se Supplemental Brief

Appendix C8:

Respondent ADA's Brief in the Direct Appeal, Dec. 2019

Appendix C9:

Appellate Counsel's October 2019 Appellate Brief

Appendix CIO:

Petitioner's February 2020 CPL 440.10 Motion

Appendix Cll:

Petitioner and Respondent ADA's response papers to
Petitioner's CPL 440-.10 motion (March/April 2020)

Appendix C12:

Portion of Petitioner's Oct. 2016 Sentencing Transcript

Appendix C13:

Petitioner's federal habeas corpus Dec. 2020 Bail
Application Affirmation

Appendix D1:

Kelsey v. Rutledge Petition

Appendix D2:

Complaint #4 from Petitioner's Grievance to the NYS
Commission on Judicial Conduct> June 2020

Appendix D3:

Portion of a January 2019 Civil Deposition

Appendix D4:

Petitioner's correspondence with Appellate Counsel,
and Respondent Courts regarding appellate counsel

Appendix D5:

Kelsey v. Hug Petition

Appendix D6:

Petitioner's Analysis of the Constitution's Ratifiers'
Thoughts on Appeal

Appendix D7:

Kelsey v. Lewin Petition

Appendix D8:

Kelsey v. Duwe Petition

Appendix D9:

Complaint #1 from Petitioner's Grievance to the NYS
Commission on Judicial Conduct, June 2020

This Petition for Certiorari is dedicated NYS Son of Liberty, Alexander
McDougall, The John Wilkes of America."

IN THE
-S UP-RE-ME- GO U RT ~0F—THE "“UN ITED—S TATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certirorari issue to review
the judgments below:
OPINIONS BELOW
The opinion of the highest state court to review the merits appears
at Appendix A1 to the petition, r.theiLeave: denial of the New York Court
of Appeals Justice, and is reported at
\

■ •^ TSe -pinion of the NYS SuPreme Court, Appellate Division denying a
wrii^pfer.erroEJcorum nobis is located at Appendix A2 and is unpublished.
The opinion of the NYS Court of Appeal Justice denying Leave to
appeal the Direct Appeal is located at Appendix A3 and is reported at
The opinion of the NYS Supreme Court, Appellate Division denying
direct appeal is located at Appendix A4 and is reported at People v.
Kelsey, 174 Ad.3d 962; 107 NYS.3d 150.
. The opinion of the NYS Supreme Court, Appellate Division on the
motion to accept a pro se supplemental brief is located in Appendix A5.
and is unpublished.

jurisdiction:/
The date on which the highest state court decided my case was 28
December 2020. A copy of that decision appears at Appendix Al.
The jurisdiction of this Court is invoked under 28 USC 1257(a).
CONSTITUTIONAL AND STATUTORY?:. PROVISIONS INVOLVED
Amendment V, Constitution of the United States;
Amendment VI, Constitution of the United States;
Amendment XIV, Constitution of the United States;

Kc«s j2M?ur:“ApJendrixeB2re ^

44°'10 " ApPenMx B1

NYS Criminal Procedure Law, Article 470.15 -- Appendix B3
NYS Criminal Procedure Law, Article 470.05 -- Appendix B4
STATEMENT OF THE CASE
A three-term county lawmaker, then candidate for state legislature
and a long volunteer for the Boy Scouts of America, the Petitioner led
Page 1

a high adventure backpacking trip in August 2014.
Two months later (and
t-en days shy. of Election Day) Petitioner was accused of misconduct not
then rising to the level of abuse, but which morphed into a

"groping"

claim at Petitioner 's December 2014 arrest„(seeiAppendix.Dl).
Petitioner
elected to stand trial and was convicted by a jury trial in May 2016,
and
sentenced in October 2016 to sseven years prison with ten years of postrelease supervision. This Petition for a writ of certiorari relate to
the 2019 appeal and its aftermath.
Petitioner's retained appellate counsel filed his appellate brief
(Appendix C9).in October 2018, which was denied by the state appellate
court on 3 July 2019 (Appendix A4). Petitioner also submitted his own
pro se supplemental brief (Appendix C6), citing concerns with appellate
counsel and the respondent's briefs. Upon denial of his

appeal, Petitioner

motioned the state appellate court for a vacatur of the appeal via
a writ
of error corum nobis (Appendix C3) claiming that appellate
counsel did
not adhere: to ..state appellate procedures, amounting to ineffective assistance of appellate counsel and a state deprivation of meaningful appellate
review, inter alia, This petition for Writ of Error
Corum Nobis was denied
by the intermediate court in January 2020 (Appendix A2) and the
state high
court on 28 December 2020 (Appendix Al). This Petition ensues.
Petitioner continues to maintain his innocence. Lawsuits have been
filed alleging police fraud (Appendix D8),
evidence (Appendix Dl) and claims of

police withholding exculpatory

prosecutorial misconduct (Appendix D7)

for which a state writ of habeas corpusshas issued with
a hearing scheduled
for 5 March 2021.
REASONS FOR GRANTING THE WRIT
Direct and concise arguments for granting the Writ follow with
supp­
orting factual and legal bases corresponding to each of the questions
presented for review at the forefrontof this PetitionPfollows.
Page 2

Argument
1

......--NEW YORK'S COURT-SYSTEM BREACHED-DUE PROCESS-& •
ITS OWN SELF-IMPOSED DUTY TO ADVISE DEFENDANTS
AS TO THEIR APPEAL RIGHTS WHEN IT FAILED
TO INSTRUCT PETITIONER OF THE POST-CONVICTION
MOTION PROCEDURES BY WHICH A FAIR AND ADEQUATE
APPEAL COULD ENSUE.

The NY Court of Appeals took the opportunity in the 1969 case, PEOPLE
V. MONT(Qg|MERY, 24 NY.2d 130 "to announce clearly that every defendant has
a fundamental right to appeal his conviction." The same court decision ack­
nowledged it as "a primary duty" of the State and "a fundamental concern
that defendants be informed of their right to appeal," and that if "it is
determined that he was not told of his rights, then clearly he was denied
the 'equal protection' of the law." Such a due process right and respons­
ibility of the Court cannot be delegated to members of the bar, the MONT­
GOMERY court wrote in clear and unequivocal language.
Such a fundamental right to appeal is a hollow one if the Court's
primary duty of advising criminal defendants excludes mention of the State
practices of post-conviction motions to vacate judgment codified in Crim­
inal Procedure Law Section 440. By design and supported by a plethora of
case law Spanning over half a century, the New York procedure for contesting
criminal convictions (and sentences) as it relates to matters of factfbut
nevertheless contests and grievances of a constitutional proportion) has
been by way of the CPL 440 motion. "At any time after entry of judgment,
the Court in which it was entered may, upon motion of the defendant, vacate
such judgment upon the ground that __ the judgment was obtained in viol­
ation of a right of the defendant under the constitution of this state or
of the United States" Criminal Procedure Law 440.10(l)(h) (EXHIBIT Bl).
Historically 440-motions have also been known as Writs of Error Corum
Nobis. LYONS V. GOLDSTEIN, 290 NY 19 (1943). "A Writ of Error Corum Nobis
applies only to those instances where defendant's constitutional rights
have been violated." PEOPLE V. COHEN, 81 NYS.2d 455. The "remedy of corum
Page 3

nobis is available when there has been an abrogation of a defendant's const-ituti-onal rights which does-not appear in the record" PEOPLE V. VANCE,
37 Ad.2d 661 (3rd Dept 1958).
Most frequently, corum nobis writs/440 motions are the "vehicles" by
which convicted persons are able to expand the record to establish facts
essential to proving the ineffectiveness of the right to counsel. "Claims
of ineffective:assistance of counsel are best addressed in post-conviction
proceedings" PEOPLE V. LOVE, 112 Misc.2d 514 (1982). "Defendants ineffective
assistance of counsel claim should have been raised via a post-judgment
motion so thatrthe record could be expanded to permit trial counsel to explain his trial tactics" PEOPLE V. GILBERT, 295 Ad.2d 275 (1st Dept. 2002).
Defendant's ineffective assistance of counsel claim turned on matters
concerning counsel's trial preparation that were not reflected in the rec­
ord and required further development by way of a motion to vacate judgment"
PEOPLE V. GONZALEZ, 8 Ad.3d 210 (1st Dept 2004); PEOPLE V. HENDRIX, 8 Ad.3d
72 (1st Dept. 2004).
New York not only permits ineffectiveness of counsel claims and other
constitutional claims contesting a conviction that require an expansion of
the record by way of post-conviction motions, the State requires such a
motion or otherwise the convicted person

as here -- forfeits his claim

to expand the records to support claims of unconstitutionality. "Under New
York law, claims of ineffective assistance of trial counsel generally must
be addressed to the trial court in a motion to vacate rather than a direct
appeal

TAYLOR V. KUHLMANN, 36 F.Supp.2d 524 (1999) (emphasis supplied).

Contention that defendant was denied effective assistance of counsel was
primarily based on matters outside the record and thus could not be reviewed
on direct appeal" PEOPLE V. RHODES, 11 Ad.3d 487 (2d dept 2004). "Claims
of ineffectiveness of counsel could only be raised by post-judgment motion
to the extent they arose from matters outside the record on appeal" PEOPLE
Page 4

PIKE, 254 Ad.2d 727 (4th Dept 1998).
-----

Because New York j udicial practice “bifurcates' the constitutl'onar reT

iew of a criminal conviction into direct appeal and post-conviction motion
practice, the convicted person's established fundamental state right to
appeal must necessarily require judges whose duty it is to advise about
appellate review of the record, to also advise criminal defendants of post
conviction motion proceedings including CPL 440. The same logic and truth
spoken in 1969 by the MONTGOMERY Court shpuldirapply to 440-motions so that
criminal defendants are made aware that they can raise constitutional claims
outside the record, and how to do it. Absent this, the judicial counsel is
only partially accurate, and perhaps misleadingly harmful.
"Our decision very simply demonstrates a fundamental concern that def­
endants be informed of their right to appeal, and that where an attorney,
whether assigned or retained, fails to apprise his client of the vital
privileges, there is no justification for making the defendant suffer for
his attorney's f^ljaJLings," wrote the MONTGOMERY court. It matters not that
MONTOGMERY was superceded by statute by CPL 460 (which established rules
regarding appeal notices and perfection). The focus of MONTGOMERY was that
it is "a state responsibility" to communicate the right of appeal, and
yet because the state splits the process into two vehicles of review,
it is counterproductive if not potentially treacherous for the State to
counsel one post-conviction evaluation but exclude others including ones
that if not followed could preclude a full review (i.e. the 440-motions).
It also should behoove the State to advise-.criminal defendants that claims
of ineffective assistance of counsel often must be claimed in a 440-motion,
rather than on a direct appeal, as the self-interest of attorneys may lead
them fcb omit advising clients and thereby: subject themselves to scrutiny
The "primary duty" established by MONTGOMERY requiring judges to advise
defendants of their right to appeal remains in practice today, notwithstanPage 5

ding the case being superceded by statute. At Petitioner's October 2016
sentencing the judge honored his MONTGOMERY-duty:——

——_________

"And Mr. Kelsey, I know you've reveiwed your appellate rights
with counsel, but I must advise you that you do have the right
to appeal from the sentence and any prior proceedings to the
Appellate Division of the Supreme Court of the State of New York.
That right will be lost to you if you do not appeal within 30
days • • • "
EXHIBIT Cl1? , p . 24-25.
The judge did not advise or explain that the post-conviction motion relief
available under CPL 440 could be used to expand the record, or that it is
the chief and first method of appeal when claiming ineffectiveness of counsel. An argument can be made that had the judge done so the errors leading
to this application may have been avoided. In consequence, Petitioner's
appellate counsel filed a direct appeal primarily arguing ineffectiveness
of trial counsel claims without first filing a 440-motion to expand the
record. This caused the Appellate Division, to deny Petitioner's appeal,
as also the trial court to deny the Petitioner's pro se 440-motion filed
after the appeal as "procedurally defaulted." See Appendix A6.
That Westlaw searches and many of the cases cited herein reveal that
confusion as to the proper procedure(s)

is widespread in New York, and

has been so for a long time. Myriads of cases reveal that criminal defend­
ants have not received full, fair, adequate or meaningful reviews of all
their constitutional claims when New York's bifurcated appellate "vehicles"
clash withoone another. The result is the frustration of that "fundamental
right to appeal," not to mention the federal rights that underly the pur­
pose of why criminal appeals are necessary in the first place. The Court
in GRIFFIN V. ILLINOIS, 351 US 12 (1956) required that criminal defendants
^i-§dts to appeal must be

adequate and effective" under the guarantees of

the Fourteenth Amendment. Current practice ifi New York is far below that
standard, prompting an appeal to the U.S. Supreme Court to speak up so that
the right to criminal appeal is more than an empty and sterile ritual.
Page 6

Argument
—I-I-.

----------- AP-P-E-LLrA-TE-GOUN-SEL-WAS—rNE-FF-EGT-IV-E----------BY FAILING TO EXPAND THE RECORD
VIA A 440-MOTION PRIOR TO FILING THE APPEAL;
SUCH PROCEDURAL FAILURE FRUSTRATED PETITIONER'S
CONSTITUTIONAL RIGHTS.

The standard for assessing ineffective assistance of counsel was
determined in STRICKLAND V. WASHINGTON, 466 US 668 (1984). STRICKLAND's
standard applies to appellate counsel in first-tier appeals. SMITH V.
ROBBINS, 120 S.Ct. 746 (2000); EVITTS V. LUCEY, 469 US 387 (1985). Fair­
ness of the appellate process requires that a defendant receive more than
mere nominal representation from counsel. EVITTS V. LUCEY. "In order to
prevail on an ineffectiveness of counsel claim, a defendant must first
show that his counsel's performance was deficient and must then show that
the deficiency caused actual prejudice. STRICKLAND V. WASHINGTON. The
deficiency prong is established by showing that the attorney's conduct wr
'outside the wide range of professionally competetent assistance

ID at

690. The prejudice prong is established by showing that there's a'reasonable probability' that but for the deficiency

the result of the proceed-

ings' would have been different" ID at 694. This two prong test applies
to the evalution of appellant counsel as well as trial counsel. See MAYO
V. HENDERSON, 13. F.3d 528 (2d Cir. 1994); 0GLAUDI0 V. SCULLY, 982 F.2d
798 (2nd Cir. 1992); ABDURRAHAMN V. HENDERSON, 897 F.2d 71 (2nd Cir. 1990)"
as quoted in CLARK V. STINSON, 214 F.3d 315 (2000).
Respondent New York State limits direct appeals to a consideration
to matters, documents or information that were before the trial court.
XIAOLING SHIRLEY HE V. XIA0KANG KU, 130 Ad.3d 1386 (3rd Dept. 2015)
(documents or information that were not before [.the trial court] cannot
be considered by this Court on appeal). Facts not contained in the recor
are not reviewable on direct appeal. PEOPLE V. PIPARO, 134 Ad.2d 295
Page 7

(2nd Dept. 1987). A criminal defendant cannot appeal directly based upon
matters outside the records PEOPLE V. 'BELL, 161~"A<i."2d 772' (2nd Dept'. 1990).
Content and form of the record on appeal are governed by Civil Practice
Law and Rules, Rule 5526
The prevailing appellate norm in New York State, prior to filing an
appeal, is to expand the record when issues, matters or documents that
dehors the record are necessary to the appeal. "Where allegations raised
on issue in defendant 's brief involved matters dehors the record, they
could not be considered by the Supreme Court, Appellate Division

• •

. but

defendant could address such issues in application to county court to vacate judgments of conviction and have all substantial and material questions
of fact granted by such application resolved by that court" PEOPLE V.
ROBERTS, 89 Ad.2d 912 (2d Dept. 1982). "Defendant's challenge ... involved
matters outside the record, and thus appropriate procedural vehicle to address that contention was to motion to vacate judgment of conviction" PEOPLE
V. WATSON, 14 Ad.3d 419 (1st Dept. 2005) (emphasis supplied).
Filing a post-conviction motion via CPL 440.10 to expand,.the record
prior to filing a direct appeal is the prevailing norm in New York State.
PEOPLE V. BROWN, 382 NE.2d 1149 (1978) (since record often does not provide
enough information on effectiveness of counsel, an Article 440 motion is
usually a better method for ineffectiveness of counsel claims). "In absence
of record concerning adequacy of defendant's representation, issues of
alleged inadequate representation by assigned counsel Cannot be reviewed
in appellate court, and is more properly raised by post judgment motion"
•PEOPLE V. MARTIN, 52 Ad.2d 988 (3rd Dept 1976). An Article 440 motion "is
designed to inform the court of facts not reflected in the record and not
known at the time of judgment that would as a matter of law, undermine the
judgment" PEOPLE V. HARRIS, 109 Ad.2d 351 (2nd Dept. 1985). To the extent
Page 8

that the defendant's claim of ineffective assistance of counsel goes beyond
the record it may not be reviewed-on direct appeal. PEOPLE V\ MONROE, '52
AD.3d 623 (2008). "Defendant's claim of ineffective assistance of counsel
concerned matters outside the record and was more properly the subject of
a post-conviction motion rather than an appeal" PEOPLE V. GREEN, 9 Ad.3d
687 (3rd Dept. 2004). In addition, the ABA Standards impose upon counsel
to "advise of any post-trial proceedings that might be pursued before or
concurrent with an appeal" ABA Standards for Criminal Justice, 21-2.2(b)
2nd edition 1980.
"Generally the ineffectivness of counsel is not demonstrateable on
the main record," the NY Court of Appeals observed in PEOPLE V. BROWN, 45
NY.2d 852 (1978), "in the typical case it would be better, and in semerrd.
cases essential J

* •

that an appellate attack on the effectiveness of counsel

be bottomed on an evidentiary explanation by collateral or post-conviction
proceedings brought under CPL 440.10" j(eniphasis supplied). Here, appellate
counsel's brief submitted to the NYS Appellate Division on Petitioner's
behalf primarily raised ineffective assistance of trial counsel claims with­
out first filing and without concurrently filing a CPL 440.10 motion. See
Appellate Brief in C9. This is ineffective assistence of counsel, for which
the Petitioner filed a petition for Writ of Error Corum Nobis with the
Appellate Division (Exhibit C3) for which the Court denied the writ, leading
to this request for certiorari.
The prevailing norm that appellate counsel should first file a post­
conviction motion to expand the record before filing an appeal is long-sta­
nding in New York particularlytas r-itsconcerhs 'claimsrof ainef f ective assist­
ance of trial counsel. "Any claim that defendant was deprived of effective
assistance of counsel should be resolved by trial court on motion to vacate
judgment" PEOPLE V. PRENTICE, 91 Ad.2d 1202 (4th Dept. 1983). In fact, the
Respondent ADA of St. Lawrence County actually observed in his appeal opposPage 9

itiom papers,

not once but three times, that Appellate Counsel did
not fo1-•
low the prevailing
norm of filing a-440-motion to
^rgue^ahe^ffdctive 'assTst - "
ance of counsel claims before
filing his appeal. Such statements are ind­
ictments against the Petitioner
s appellate counsel:
"Defendant raises
a variety of ineffective assistance of counsel
claims, which

are not cognizeable on direct appeal"

Exhibit C8, p.18.
a CPL 440 motion."

matters that are outside
more properly addressed in

Exhibit C8, P.19.
"Based on defendant's claims, it appears that thi *
invnl 6en ^re W^iately’raised^n
thlS argument would
a CPL 440 motion as it
involves and makes references
to matters outside the record."
Exhibit C8, p.24.
In all three of the above

quotes taken from the Opposition Brief on Direct
Appeal, the first prong of the STRICKLAND test for
ineffective assistance-of counsel is firmly established,
In essence, Appellate Counsel's failure
to first file a CPL 440-motion to expand the
record as it concerns the
matters argued, particularly
as it related to ineffectiveness of counsel
claims, had the effect
of thereby forfeiting Petitioner s otherwise right
to an appeal. This is prejudice, the second
prong of STRICKLAND. Not unlike
counsel's failure to file a Notice of Appeal in ROE
V. FLORES^ORTEGA, 528
US 470 (2000),
counsel's deficient performance has deprived respondent of
more than a
judicial proceeding; that deficiency deprived the
respondent of the appellate proceeding altogether."
Appellate Counsel's failure to file

a CPL 440-motion prior to filing
the direct appeal, also in effect forfeited
Petitioner's right to file a
CPL 440-motion as the trial
1 court's June 2020 denial of Petitioner s pro se
440-motion (EXHIBIT A6) ruled that Petitioner
was procedurally defaulted
to raise claims that should have been raised earlier.
Petitioner's Leave
application to contest the June 2020 procedural
default decision is now
before the Respondent Appellate
Division, so that specific faults with that
Page 10

decision will not appear herein, but to tlwr interested those complaints can
- be f ound ~in -EXHTB ITS- ~C2 “and-“Cl_,~—the- let ter—the eppTication ~t het~the _ Res^xondent Court.of Appeals denied leading to this application for certiorari.
Still a brief survey of the ineffective assistance of trial counsel claims
that were included in Petitioner's post-appeal pro se 440-motion reveal much
about the facts and arguments that did not make it to the record to be
considered on the direct appeal due to Appellate Counsel's failings.
In assessing the following 440-motion claims recall that under New
York law "Defendant could not assert his ineffective assistance of counsel
claims on direct appeal to the extent it made factual assertions not sup­
ported by the record, but was required to bring claim through a motion to
vacate judgment" PEOPLE V. MONTES, 265 Ad.2d 195 (1 Dept 1999). Petitioner's
pro se 440-motion sought to expand the record by advancing the following
claims relating to ineffective assistance of counsel, all of which did not
receive any attention on appeal on account of Appellate Counsel's failure
to follow the procedural norms:
Defense Counsel failed to bring to the Court's attention three
exculpatory BRADY affidavits that law enforcement kept from
the defendant until the eve of trial impeaching the allegants
and showing that their claims evolved. EXHIBIT CIO, pages 21-27.
Defense Counsel failed to expose a well documented instance of
perjury. EXHIBIT CIO, pages 28-35.
Defense Counsel failed to introduce crucial evidence or prepare
for a crucial stage of trial. EXHIBIT CIO, pages 36-42.
Defense Counsel failed to subject the prosecutor's witnesses to
meaningful adversarial testing. EXHIBIT CIO, pages 43-51.
Defense Counsel failed to object to Fourth Amendment evidence
and failed to assert Petitioner's right to a hearing. EXHIBIT CIO,
pages 62-73.
Defense Counsel failed to call expert and medical witnesses to
testify at trial. EXHIBIT CIO, pages 74-97.
Defense Counsel failed to interview, prepare and call witnesses
at trial. EXHIBIT CIO, pages 124-135.
Page 11

Defense Counsel failed to prepare for critical stages of the
trial. EXHIBIT CIO, pages 136-171.
It is argued that each of these claims, not to mention the cumulative force,
establishes and meets Petitioner's burden for proving prejudice under
STRICKLAND that had such claims and the background supporting information
in which the 440-motion is filled been available for the Respondent Appell­
ate Court's review on direct appeal that there is a "reasonable probability"
that but for counsel's unreasonable failures the appeal would have been
granted. Petitioner's CPL 440-motion also contains constitutional claims
related to prosecutorial and judicial misconduct whose introduction prior
to the appeal to the'record may have led to Petitioner's success on the
appeal of having the conviction reversed.
Clearly New York State appellate procedures insist that Appellate cou­
nsel expand the record via post-judgment motions prior to filing for appeal,
particularly and expressly as it concerns ineffective assistance of
counsel claims. Appellate Counsel did not follow this norm, and by his
defective conduct he Caused Petitioner prejudice including the forfeiture
of a meaningful appeal and later CPL-440 motion review. We turn now to
the unreasonableness of the Respondent State courts in not allowing for
correction to Appellate Counsel s error and prejudicial effect upon the
Petitioner.
Argument:
III.

THE RESPONDENT STATE WASSUNREASONABLE
NOT TO EXTEND TO THE PETITIONER
A PRESUMPTION OF CORRECTNESS
BUT INSTEAD DENYING PETITIONERS WRIT
OF ERROR CORUM NOBIS APPLICATION

Filing for a writ of error corum nobis is the traditional method in
New York State to raise a contention of ineffective appellate counsel with
the Court so as to cure deficient legal appellate performamce.
PEOPLE V.
Page 12

DIRENZZIO

14 NY.2d 732 (1964). Petitioner pursued the proper method and

■ — - - —11 m e 1 y—s u b m it ted—a—Pe-t 111 o n—for—s u o h—-a.wr 11—ths—Re s~pond ent—A ppellate—DiviJ
(and later Court of Appeals), advising both that his rights to effective
appellate counsel and due process were violated by Appellate Counsel's
2018 Appellate Brief (EXHIBIT C9) "as there exists errors, omissions and
instances of misconduct;... since this information is reasonably believed
to have an impact on a reviewing court's consideration in a direct appeal
if the record was enlarged so as to include them, the application of a CPL
440-motion was and remains appropriate as a preliminary to the direct
appeal" (EXHIBIT C3, Petition, para.10). At all times, for the reasons
articulated in his Petition papers it was reasonable and witin the proc­
edural norms of Respondent State law for Petitioner to have requested the
issuance of a writ of error, and for the Court to have vacated the appeal
decision (EXHIBIT A4) to have allowed for a CPL 440-motion to precede it
so as to expand the record and establish the support for ineffectiveness
of trial counsel claims as is the prevailing norm in the State that appell­
ate counsel did not adhere (see argument SUPRA).
Respondent Appellate Division and Court of Appeals courts failed to
protect and safeguard Petitioner's federal and state rightd. to due process
and effective counsel, when both Courts denied Petitioner relief. Both
courts unreasonably-breached their duty that in. this instance required them
to extend a presumption of correctness to Petitioner's claims as argued in
the Petition seeking the writ. "When counsel's deficient performance dep­
rives a defendant of an appeal that he otherwise would have taken .. . a
reviewing court must

presume prejudice' with no further showing from the

defendant of the merits of his underlying claims" ROE V. FLORES-ORTEGA,
528 US 470 (2000).
The ROE court was explicit: "We rejected any requirement'!.that the
would-be appellant 'specify the points he would raise were his right to
Page 13

^n

appeal reinstated." This point deserves re-emphasis as chief
among Respondent-ADA's arguments in opposing-the -granting of a-Writ of Error
was.....
exactly the kind that the U.S.
Supreme Court in ROE rejected (Respondent
ADA opposed Petitioner's Writ Petition for "
unspecified claims of ineffective assistance" that he criticizes the Petitioner as
"fail[ing] to
articulate or identify"; "The People have been unable
to identify any
specific legal issues that require a more detailed
response and would
simply ask that this
Court deny defendant's motion as he has failed to
identify
or argue any alleged failings or claims of ineffective' assistance?.
EXHIBIT C4, para. 8, 9 & 11).; Such
argument ignores the presumption that
criminal appellants ought to enjoy as ruled in ROE:
HA

The Respondent Courts would have been in direct opposition with
federal law
if they accepted Respondent ADA's above-argument, although
we cannot say
for sure why the Respondent
Court's denied Petitioner's Writ petition as
neither Court bothered to provide a reason in its denial “ pperhaps a
further due process violation and disregard fdrithe rights
and dignity of
appellant litigants.
Like ROE^Petitioner argued in his Petition seeking a..writ of
error
that Petitioner was prejudiced by appellate counsel
s deficient performance,
He "was deficient in failing
to first file an Article 440 motion with the
trial court wherein facts and circumstances not reflected in
the record
and/or not known at the time of
conviction/sentencing could receive proper
noticing and become part of the record by which
a proper appeal could ensue"
Petitioner argued in his papers as a pro se litigant (EXHIBIT C3).
As argued
SUPRA, such deficient performance arose because the Respondent State's
Page 14

bifurcated appellate process limits matters tending to be dehors the record
-to-pos-t—conviction-motions-prior to being considered on direct "appeal.. Su
a policy is despite CPL 470.15(1.)'giving appellate courts' the ability to
consider and decide factual situations as they deem fit -- a point this
brief will later return. Here, we merely note that the State's bifurcated
appellate process and the Respondent court's refusal to issue a writ of
error when appellate counsel did not follow the prevailing norm appellate
procedure" demonstrates an inhospitable frustrating of this Petitioner's
ability to air grievances of constitutional dimensions. Petitioner's aff­
idavit requesting the writ of error was clear on the constitutional need
that was at stake:
"The appeal is seriously deficient, largely because it fails to
incorporate the actual facts and circumstances that did not make
its way to the record of the case..." (EXHIBIT C3, para. 7).
"Respondent based so'me of his arguments off non-record inferm-r
ences, and because the correction of errors required the airing
of several off-record misconduct..." (EXHIBIT C3, para.8).
Petitioner's Petition was narrowly tailored to arguing.that Appellate Cou­
nsel short-changed him"in not first filing an Article 440 motion to document
on the record the plenitude of facts and circumstances not now on the
record..." (EXHIBIT C3, para.13). As ROE V. FL0RES-0RTEGA-'supports, it was
unnecessary to detail specific argument at the time of Petition -- although
the subsequent CPL 440-motion Petitioner filed presents 206-pages of argu­
ments. ROE stands for the premise that a presumption of correctness ought
to have immediately attached to Petitioner's Petition for Writ of Error,
and such presumption is underscored by an explicit statement that ho further
showing of underlying claims was necessary. Accordingly, on both grounds
the Respondent Courts were unreasonable in denying Petitioner's writ pet­
ition, seeking judicial assistance to safeguard and protect his constitut­
ional guarantees. Respondent Court's failures amount to withholdance of
Page 15

the very "adequate and effective" minimum constitutional safeg^rds that
the Supreme Court specified fhaf Sfafe~ court s~mustf suppTy when-granting
appellate rights. EVITTS V. LUCEY, 469 US 387 (1985).
On state due process arguments alone, New York's courts were unrea­
sonable to deny Petitioner's plea for a writ of error. Writs of Error
Corum Nobis are the appropriate procedural remedies to challenge due process
and appellate counsel ineffectiveness claims under state law. PEOPLE V.
BARCHERT, 69 NY.2d 593 (1987). Such a procedural remedy have been expiessly
preserved by the Courts to address these very type of problems. The court
in BARCHERT held that such writs of corum nobis survived the adaptation
of the criminal procedure law as the CPL "did not expressly abolish the
common law writ of cor.um nobis."
For all the reasons as stated, and for the benefit 6f those simil­
arly situated as the Petitioner relying on appellate counsel to follow
stabe procedure but fails to do so, and the state court fails to correct
appellate ineffectivness of counsel, the U.S. Supreme Court is urged to
intervene and admonish the State Court that due process and the constitu­
tional rights of criminal defendants require Courts to give them the
presumption of correctness in writ of error petitions, as aniessential part
of the "adequate and effective" minimal constitutional safeguards required
of a State such as New York that claims to recognize the right to appeal
as a fundamental right.

Beyond this, the Court is also urged to review

New York's bifurcated appellate process and procedure as a whole as to
whether it is in fact inhospital and frustrating to constitutional claims
so as to require mode of operations reform.

Page 16
** Petition for Writ written entirely while under month-plus long lockdown quarantine for COVID-19; ::Typo-clemency and other understanding
appreciated.

Argument:
TYtt

RESPONDENT- STATE COURTS FRUSTRATED
PETITIONER'S APPELLATE RIGHTS
AND DENIED HIM DUE PROCESS
DURING THE APPEAL PROCESS
RESULTING FROM INHOSPITABLE
APPELLATE PROCEDURES

Petitioner's appellate and due process rights were curtailed by the
Respondent State causing him prejudice even prior to their July 2019 appeal
denial. Disatisfied with Appellate Counsel's deficient performance, and
sensing flaws in the appellate procedures themselves that later became
discernible, Petitioner took the extraordinary step to submit a pro se
supplemental brief -- as New York State law permits --so as to address
and correct errors and omissions:in both the Appellate and Respondent
briefs, only to have the Respondent Appellate Court disregard the pro se
supplemental brief, and with it Petitioner's rights.
State statute 22 NYCRR 1250(ll(g)(2) permits appellants to submit
pro se supplemental briefs, even as here where a Petitioner is represented
by retained counsel. Noticing "errors and omissions" in the "seriously
deficient" appellate brief, and the need to "correct the record," Petitioner
corresponded with the Respondent Court (EXHIBIT C7) leading to an April
2019 motion seeking acceptance of a 12-page Pro Se Supplemental Brief
(EXHIBIT C6). "Permission to submit a supplemental pro se brief is essen­
tial to the interests of justice," Petitioner's affidavit in support stated,
"to make sure that the Appellate Division has accurate and evidential
information in deciding the appeal" (C7). Such papers also argued that
Respondent had distorted the record. "Respondent's errors are numerous in
alleging effective trial counsel in specific ways that are easily negated
by the record, such that without documentation and the accompanying cita­
tions, so as to dispute, the Court will lack meaningful reflection of
Respondent' s claims. Such a lack will impact and prejudice my appeal by
Page 17

masking the true scope and nature of trial counsel
s ineffectiveness, and
the denial of. due .process and fair trial EXHIBIT C7, para-.- 11-&1-2.---------Respondent Appellate Court issued its decision on May 2019 to grant
Petitioner's motion request to submit a pro se supplemental brief, two
months before denying the appeal in full (see EXHIBIT A5)

. Such acceptance
of the pro se supplemental brief was limited: "Ordered that the motion is
granted only to the extent that the pro se reply brief is deemed timely
filed and served, and only those portion^ of the.'.record on appeal will be
considered by this court." As argued herein, such a motion grant with
these limitations amounted to a de facto dismissal to
entertain, consider
or accept in any way the Petitioner's claims and corrections in violation
of Petitioner 's due process and appellate rights.
Accordingly, the Court's
July 2019 denial of the appeal does
not even mention the Petitioner's pro
se supplemental brief, let alone consider any of its content, a noted
departure of previous State procedural acceptance of Pro Se Supplemental
Briefs . Consider for instance CIAPRAZI V.
SENKOWSKI, 2003 WL 23199520
wherein the reviewing Court mentioned the appellant's
pro se supplemental
brief by name and acknowledgment "which this
court considered." Note also
the decision in CAMPBELL V. GREEN', .440 F.Supp.2d 125 (2006) wherein the
court "specifically acknowledge that it had
considered Campbell's pro se
brief in arriving at its decision during its appeal." Such consideration
of those Appellant's pro se supplemental briefs while
totally excluding
the Petitioner suggests Equal Protection Clause violations
on the part
of the Appellate Court in addition
Under Respondent state law CPL 470.15(1),

poss-

ess the power to consider and determine questions of law as well as fact
(EXHIBIT B3) . Additionally under CPL 470.15(3) the
same courts are empowsred to reverse or modify judgments/sentences based
upon the law, based
Page 18

upon facts, or as a matter of discretion in the interests of justice. Such
<liscre Lion includes trader^CPL 470. L5~(~&j the authorirty to revetso—or—mcndirf
for "error or defect [that] was not duly protected

• •

.[which] deprived the

defendant of a fair trial." While it is clear from the statute that such
authority is within the Court's discretion, when a Court decides not to
exercise its powers to review claims of unconstitutionality that impeded
an appellant's trial rights -- as here — and consequently such willful
refusal to consider the unconstitutional claims merely because it arose
de hors the record, can still amount to a violation of Petitioner's appeal
rights as is herein argued.
As per CPL 450.and case law, New York's intermediate courts exist for
the sake of Appellants. Of all the New York Courts, the appellate divisions
have the power to review* facts for defects including therpower to disagree
with the manner in which juriesreoihsidered conflicting testimony in the
interests of justice. PEOPLE V. BEAKLEY, 69 NY.2d 490; PEOPLE V. ROMERO,
7 NY.3d 633. The role of the Appellate Courts in serving the interests of
justice and because they possess the power to disturb judgments by examining
facts and not just law, also cuts the other way when appellate courts turn
a blind eye to "timely filed and served" arguments and factual assertions
as Petitioner did ae in his supplemental pro se brief. In neglecting to
consider Petitioner's claims that he did not receive effective represent­
ation and other claims, albeit properly filed, the Court in essence deprived
him of due process and his right to appeal.
The Appellate Court's refusal to give the Petitioner due process in
his direct appeal is particularly abhorrent considering the court's role
in administering justice as determined by its own case law. New York law
dictates that new trials must be ordered when appellants were denied fair
trials even when an appellant was convicted by overwhelming evidence of
ff : :•

Page 19

guilt, ac'oharacteristic missing in the instant c.ase. The court in PEOPLE V.
BROWN quoting PEOPLE- V. DIAZ,
39 NY .-2d 45-7 and-PEOPLE ~V. BENNETT, 29 NY'. 2d
, wrote that even when..,"guilt [was] established by overwhelming evid­
ence . .. nevertheless [a] defendant was entitled
to a fair trial." "The
cardinal right of a defendant to a fair trial is respected in every instance,'
the Court decreed in PEOPLE V. CRIMMINS, 36 NY.2d 230 (1975)..Except in
the Petitioner's case the cardinal right to a fair trial was denied him
by among other things ineffective counsel which Petitioner properly raised
in his supplemental pro se reply brief accepted as"timely filed and served"
but otherwise ignored, In refusing to consider the Petitioner's claims
the Court deprived the Petitioner of his rights.
Under BRADLEY V. MEACHUM, 918 F.2d 358 (3rd Cir. 1990) state courts
must determine matters of federal law before deciding if state procedural
rules apply to the case. If the Second Circuit were to have such a rule
the Respondent court would have violated such a rule. Compliance would
have required the court to accept the documents submitted wifchhPetitioner's
pro se brief for purposes of establishing constitutional claims
rather
than just summararily rejecting them as dehors the record on appeal. Since
the documents included BRADY material withheld from the jury, we argue
that the BRADLEY V. MEACHUM rule was required by the appellate
court under

the Court s requirements to protect Petitioner's due process rights under

the required MATTHEWS V. ELDRIDGE,
just summarily.dismissing Petitioner

analysis rather than
s pro se brief arguments/documents

without any such analysis or review.
A further indicator that Respondent Courts were inadequate in their
appellate duties, and neglectful of Petitioner's due process,
can be seen
by a consideration of MAPES V. COYLE, 171 F.3d 408 (6th Cir. 1999). Therein
Petitioner's "properly raised" claim was also disregarded on appeal.
Page 20

Briefly with respect to the specific claims presented in the Petitioner's
pro—s-e—supplemen-t-a-l-tbri-e-f—but—total-ly—i-gnored—by^the—AppellateMDivtsxoTi---- ---were allegations that trial counsel did not prepare for trial. These were
argued in response to Respondent ADA's brief claims that trial counsel
provided "meaningful representation." Where an attorney makes a claim to
a court that can be refuted by evidence and testimony, as here

the interests

of justice seem to require that such a claim be challenged and the Court
consider the arguments and evidence showing otherwise. When that Court is
empowered by statute with fact-finding authority and discretion to even
second-guess jury decisions, it is nothing less than dishonest and an invit­
ation for a continued miscarriage of justice for said Court to ignore evid­
ence and arguments to the contrary as this Court has done. Petitioner's
pro se supplemental brief argued:
"The tragic fact that underlies the defendant's present con­
viction and sentence is that trial counsel refused to prepare
for trial, spending any time related:'to the case on negotiating
a plea deal, which the defendant told him at his hiring ... that
no plea deal would be accepted. • • • Instead trial counsel vacationed in Florida, refused to meet with witnesses for testimony
preparation of voir dire (including the defendant) and spent
the three days between trial day #2 and #3 not preparing for
the trial but sightseeing in Montreal with his girlfriend."
The Pro Se brief also provided background information on how defense counsel
showed up for Petitioner's scheduled Huntley Hearing "without any plan for
proceeding, no witnesses subpoenaed (not even the doctors who the case's
first counsel had ready to testify and deposits were paid)... wherein the
defendant was involuntarily forced to waive the hearing as his attorney
was not:prepared for it." A court empowered with fact-finding authority
required to consider constitutional claims before state procedural ruleadherence might have taken such a claim as grounds to schedule an evident­
iary hearing in the interests of determining the truth of such a claim,
particularly since the Huntley Hearing waiver was a major prong of Apella«._
Counsel's ineffectiveness claim. It is long held that constitiiitional claims
fage 21

extinguished during waivers, but survive (JOHNSON V.

ZARBST, 304

4IS--458—1-9-33-)^—The—appe-l-l-d-te—eour-t—did

no^—s^hedu-l-e-an-evi-dentri-ary-heari-ng----where factual assessments could: be madecito evaluate
the constitutional claim,
instead the Court 's July 2019 decision instead decreed
that trial counsel
provided "meaningful
representation'.' (EXHIBIT A4) . As with NUNES V. MUELLER,
350 F.3d 1045 (9th Cir. 2003) it is here
unreasonable when the Court had
the power to expand the record, but did not do so.
"A failure to find
facts, is actually
an unreasonable determination of facts." TAYLOR V. MADDOX,
366 F.3d 992 (9th Cir. 2004).
The aforementioned BRADY affidavits
were police statements of witnesses
that impeached the allegant
s and undermined the felony convictions altogether
These were withheld from the defense,
and never shared with the jury.
i
See
EXHIBIT D1 for an active Complaint against the
Police Officer who withheld
these exculpatory documents from the
District Attorney. As with the Petitloner's supplemental brief statements
regarding the ineffectiveness of
trial counsel, these BRADY affidavits
were submitted to the Court because
the Respondent ADA made factually untrue statements
inuhis papers to the
court claiming that the allegants' credibility
was never called into doubt,
These affidavits say otherwise. Petitioner
s pro se brief discusses these
affidavits on pages 8-12 of EXHIBIT C6.
As with before, the issue comes
down to Petitioner's rights when the Court
is^being prompted to believe
allegations from a party that is innaccurate.
Is the right to appeal and
due
process not frustrated, and the State appellate
process inhospitable
when a Court empowered by statute with the
power to consider both facts and
defects in proceedings chooses to turn a blind
eye to "properly filed"
challenges to those allegations? "A judicial
process that renders constitutional error invisible is, after all, itself
an affront to the Constitution" (justice Souter Dissent in SMITH V.
R0BBINS, 120 S.Ct. 746 (2000).
Page 22

Argument;
V.

F5 :RES.P.ONDENT-'‘APPELLATEi7C0URT' ABUSED

---------- ITS" DISCRETION WHILE DENYING'DUE PROCESS
AND EQUAL PROTECTION OF THE LAW TO PETITIONER
WHEN RULING "THE RECORD SHOWS..."
WHEN.THE RECORD IS ENTIRELY VOID OF WHAT IT CLAIMED.
At the same time that the Appellate Court refused to consider evidence
and argument that was dehors the record that could have benefitted the Pet­
itioner (see arguments SUPRA), the same Appellate Court looked beyond the
record as urged by the Respondent ADA in his papers in what can only be
termed an abuse of discretion, which has caused constitutional deprivations
to the Petitioner.
Judicial abuses of discretion can be found when a reviewing court "bases
its decision on error of law or uses the wrong legal standard; bases its
decision on clearly erroneous factual finding, or renders a conclusion that
though not necessary a product of legal error or clearly erroneous factual
finding cannot be located within the range of permissible decisions" KLIPS
GROPRINEC V. CPRO E-COMMERCE LIMITED, 880 F.3d 620, 2018 WL 54338. Judicial
abuses of discretion include acting "arbitrarily and irrationally" and
basing its discretion on "erroneous factual or legal premises" US V. WELSH,
879 F.3d 530, 2018 WL 386658.
Here, in Petitioner's 2019 Appeal the Respondent Appellate Court was
appellate brief that claimed that Petitioner was denied a fair trial and
effective assistance of trial counsel over the improper introduction of
alleged prior bad acts. As argued.in the appellate brief, the trial court
reserved its ruling on the morning of jury selection when the prosecutor
first announced plans to introduce them, and after trial counsel objected
(see Appellate Brief, p.18; EXHIBIT C9). A day later and following numerous
prosecutorial objections to the defendant's opening statement the appellate
brief states:
Page 23

r-Ihe $°Urt lnterrupted Appellant's opening and had an off the
record conversation m chambers (A-098). Subsequent to that
e^nv-ersia-tio-n—the-cotirt-piaced-some-of-the-detaxte-^yf-irt-onabonf^wfn ThS ^e??le had asserted that Appellant's statements
about having a stellar reputation had opened the door to the
CW?dh«510? 0f^his 5ri?r bad acts (A-098). Given that the
Court had already made its ruling (off the record), trial counselresponded merely by stating, 'I respect your ruling judge I t!
The Appellate Brief continues:
whethIr1?h20p?opoIedeeJideIlIerSasrMte?iaihand0iftso?t?o,IIihS?.-

element of the alleged offenses. Furthermore, there is no evi­
dence that the Court weighed the probative value of the evid­
ence against the prejudicial impact of its introduction"
Respondent ADA conceded this lack of evidence in the trial rfeeord in his
Respondent Brief (EXHIBIT C8»p.27), and then remarkably asked the Court
to overlook the voids in the trial record^ which the appellate court then
did so.
Appellate Counsel's brief listed and described the various procedural
safeguards that New York State requires both prosecutors and courts to
pass through for the benefit of criminal defendants and their rights. Then
Appellate Copnsel stated in clear aqBq-airva&aiajignggage: "Here there is no
evidence that the Court ever engaged in this analysis for any of the
prior bad acts that the People introduced" (p.20). Despite the trial record's
total absence of any indicators that the trial court complied with state law
m protection of the Petitioner's rights, the Appellate Court's July 2019
decision (EXHIBIT A4) wrote itsdown after-the-fact rationales that it then
passed off as if it was part of the trial record from three years before.
Some of this rationale was "such evidence was admissible to show defendant's
intent and motive" (page 6), but most egregious was its clearly erroneous
factual-finding: "The Record Shows that county court balanced the probative
value of this testimony against its prejudicial effect" (emphasis added).
Such a blatant misrepresentation of the trial record is clearly an abuse
of the court s discretion. The record most certainly does
not show any such
Page 24

weighing. Nor does the record reveal requisite discussion and naming by
—the—prosecutor—0fL^non-prepen-i-sdrfcory—purposes—for—the—introduction—of--sucv
testimony.
Petitioner argued that his due process and equal protection rights
were violated in his Fall 2019 Application for Leave to the NY Court of
Appeals. He specifically compared the situation to where the same court
rejected his pro se supplememMl brief arguments as dehors the record at
the same time the Court was exercising its discretion to "find^'5evidentiary
hearings that were not to be found in the record as an indicator of the
arbitrariness, i.e. discrimination, that defines unequal protection of
the law:
"In accepting the pro se brief the Court limited the brief
to only those matters appearing in the record ... that said,
if the Appellate Court has a rule about only ruling on the
record, then it becomes a matter of justice for the court
to stick to its rules, and not make exceptions when it ben­
efits its particular prejudices, politics, or home tpam."
EXHIBIT C5, pagel2B
Petitioner's Leave application specifically referenced ITKIN V. RINGER,
12 Ad.2d 732, a 1960's case where a stenographer was not present while
the court conducted business in chambers. The court in ITKIN ruled that
"it is impossible to pass upon the rulings of the trial court because of
the procedure adopted or reviewing the depositions in chambers without a
stenographer present." Instead the ITKIN court ruled "that in the interests
o| justice a new trial should be directed." If, even if arguendo, the
trial court did conduct the appropriate procedural safeguards off-record,
equal protection of the law, due process and sound judicial disrection
all demand that a new trial be ordered, not for the Appellate Court to
to

create its own"facts" and superimpose them onto the trial record.
An argument in support of the claim that Petitioner was unequally
treated appears also in the Leave application in Exhibit C5 wherein Peti
ioner cited PEOPLE V. SCARINGE

137 Ad.3d 1409. Therein a criminal defenPage 25

dant's trial verdict was overturned when

as here, the trial transcript
di'splays-d-n-o-Tron^prop-eh-ffty-just±f±c'ai:ion~or court—wei ghrn^——the-prej u d-=- icial effect prior to the introduction of the prior bad acts. Claiming
unequal treatment, Petitioner wrote that the decision in his case "ignores
the entire record and instead seeks to perpetuate a fraud and
a cover-up."
Such misconduct strikes at "the entire legitimacy of this court -- perhapss
even the justice system itself" (EXHIBIT C5, f>.14). So also in PEOPLE V.
SORRELL, 108 Ad.3d 787, decided on the very same day as Petitioner's appeal
the inequitable treatment is glaring.
In SORRELL a competent judge considered the prejudicial effect of evidence, limiting or excluding much of
it and facilitated'extended arguments

on the record to determine if any
'permissible non -propensitory purposes existed, f fl
The Petitioner wrote in

a 2020 Commission on Judicial Conduct grievance complaining of the Respondent judges, "In KELSEY there was no such weighing, no
such limiting, no
such excluding, no extensive arguments, and no discussion of
non-propensity
purposes" (EXHIBIT 02, p.12).
ForFall the foregoing reasons, and particularly because the
overarching theme of this Petitioniargues that Respondent
and inhospitably enforcing its proclaimed
evidence on direct appeals even when it frustrates the constitutional
claims of convicted criminal defendants, while exercising its statutory
judicial discretion to discern facts in the record as here - not to protect
defendants and their rights, but rather only when it
serves the Stateis
interest in validating trial, verdicts, the supervisory authority of the
U.S. Supreme Court is urged to intervene, reverse, and admonish a State
whose Courts disrespect, dilute, and disable the Constitutional
protections
of defendants without shame and without honor.

Page 26

Argument:
VI i

' nIW :'YoSk: STAtI': FiAUNir-AND 1
DISREGARDS /<>.. FEDERAL LAW AS WHEN
RESPONDENT STATE'S USE
OF NEGATIVE CHARACTER TESTIMONY
IN PETITIONER'S TRIAL
WAS THEN AND REMAINS
UNCONSTITUTIONAL

In 1901 New York State's Court of Appeals ruled that a criminal defen­
dant's prior bad acts and prior criminal convictions could be admitted into
evidence at a criminal trial under very specific conditions and via proc­
edures meant to protect a defendant's constitutional rights. PEOPLE V.
M0L0NEAUX

108 NY 264. At the time, New York State liberally allowed char­

acter testimony into criminal trials wherein good character evidence when
considered with other evidence was deemed a generator of reasonable doubt®
EDGINTON V. UNITED STATES, 164 US 361; PEOPLE V. SLOAN, 181 Misc. 822. Ye£,
when the U.S. Supreme Court came to prohibit all character testimony from
criminal trials — good as well as bad -- in the 1948 case MICHELSON V.
UNITED STATES, 335 US 469, a New York case, New York State henceforth
banned the use of gooditestimony in criminal trials, it would seem, while
retaining its permitted exceptions for prior bad Specific act testimony
as introduced at Petitioner's trial to his prejudice. Such continued use
of negative specific act testimony in criminal trials by the Respondent
State of New Yorkiis directly in opposition to the holding in MICHELSON,
and for the very reasons that MICHELSON outlawed use of all character test­
imony is why the introduction of alleged prior bad act testimony in Petit­
ioner's trial violated his rights to a fair trial and due process. When
urged to correct the problem on direct appeal, the state appellate court
also defiantly turned a blind eye to constitutional safeguards pronounced
by the U.S. Supreme Court (this time, FRYFW..PHILER, 554 US 112), causing
thiswPetitioner to wonder if the Fourteenth Amendment's protections of citizen rights imposed upon the States has somehow exempted New York from
adhering to the Constitution,ifdderal law and the rule of law itself?
Page 27

While the U.S. Supreme Court claims to have not yet established a
c-l-ear-preced-eTi-t omsrtierrnchre pr^ocgss^i^}Tt-s--a-r^-vi-(rl^te^|jy Lhe admission
of uncharged crimes, i.e. prior bad acts or negative character testimony,
(JOHNSON V. ARTUS, 2010 WL 3377451), in the^Pe'titioner' s mindset such a
ruling was in fact determined by MICHELSON:-and.'ought,: to ~benenforced. The
holding m MICHELSON was to close "the whole matter of character, dispose
ition and reputation" altogether during criminal trials so as to prevent
trials from turning into "circuses" when "damaging rumors, whether or not
grounded" were circumventing justice by "complicat[ing] and confus[ing]

i the

trial-, .di§.fort[ing] the minds of jurymen and befog[ging] the chief issue
of litigation. MICHELSON's ruling was a solution to " prevent confusion of
issues, unfair surprise and unfair prejudice." It banned all use of specific
act testimony, good as well as bad. Yet, in the Petitioner's case while
the Court did not permit positive specific act;testimony to enter in by
defense.witnesses5^ the Court — and New York law under M0L0NEAUX et.al.
-- allowed in negative specific act testimony.
The negative influence negative character evidence testimony can have
on the jury -- and on the verdict -- has in recent years received the att­
ention of the U.S. Supreme Court, although it seems to have had no effect
on New York's rogue justice system. In 2007, the Court advocated in FRY
that appellate courts reviewing trials for constitutional error were to
use a "substantial and injurious effect" standard to evaluate whether
wrongfully admitted testimony prejudiced a defendant in the jury's eyes.
The Second Circuit, of which New York is a part, affirmed this rule in
WOOD V. ERCOLE, 644 F.3d 83 (2011). And yet, just as negative specific act
* =

Defense witness DR. attempted to testify, the trial judge cut him
k d°n fc want.t? hear about specific instances. I don't want to
y°-U5 °Pini.on of £im- All you can testify to is a rapport
of the community sentiment, almost a verbatim MICHELSON quote.
Page 28

testimony was permitted to enter into the trial court in defiance of MICHELSON-; (-and inn. absence.'of-cia,hearing-dbOT'weighitherprejudicial—effect as reo
ired by state law), neither did the Respondent Appellate Court evaluate
the prejudice of the alleged prior bad acts on the jury's mindset at Petitioner's trial|t° determine their substantial and injurious effect as required
of it by federal law. Quite simply, New York courts do whatever they want
with no accountability -- not even the constitutionabr it appears even
their own consciences
Appellate Counsel called the introduction of the alleged prior bad acts
into the trial "prosecutorial misconduct" (EXHIBIT C9, page 20), noting
also that the Prosecutor peppered the defendant with all sorts of prior
bad act claims for acts not previously subjected to anythearing or prev­
iously Identified with a non-propensitarypurposesas required by State Taw.
Nor were the facts of the alleged prior bad acts even verifiable. Of these
the Appellate Division supplied its own reasons to defend the use of the
negative specific act testimony including "to show the defendant's intent
and motive" when the trial record itself was void of suchhiattempted rationale.
And yet, had the Appellate Court conducted a hearing to deduce prejddicTal
effect, perhaps such an inquiry might have revealed the alleged prior bad
acts, by the prosecutor's own witness' testimony revealed that such game
never had a sexual nature to it, defeating theiCourt's after-the-fact att­
empts to salvage trial court errors for the sake of the State's interests
rather than reverse their constitutional role suggests they are required to
do when error and defect deprive accused persons of fair trials and due
process.(See D3 for the prosecutor's witnesses' 2020 civil deposition
testimony regarding the game of pididdle, a game that three defense witnesses
testified was played on long trips to keep the driver awake, not for sexual
perverted purposes, pace prosecutor, pace appellate court).
The State court's penchant for doing as it wishes, no matter what the
Page 29

law
requires,issagain indicted as arbitrary by the appellate
court's opposing
dec-i-sd-ons—-issued—the—same—day—a:s—tJre—PetdrtrL-oner-'s • On the same 3 July-2019
that appellate court affirmed Petitioner's verdict in
part by defending
the use of negative character testimony, the Court also overturned the
verdict based upon the trial court's prejtidicial use of prior bad act testimony in PEOPLE V. SAXE, 2019 WL 28365322. Two cases with two very different
outcomes. In SAXE, the appellate court ruled that Mr. Saxe was prejudiced
because the negative character testimony made him appear a "serial sex
offender who had not been punished for his prior crimes."
In the Petitioner's
case, the Court,;eonduet!ed no prejudicial test
but merely invented justifications for the lowerrcourt when the record was deemed insufficient.
Such
ifiquitable and arbitrary treatment is violative of the Petitioner's 14th
amendment rights. For additional reflection on this topic see EXHIBIT 02
for the Petitioner's grievance to the State Commission on Judicial Conduct
complaining of the Respondent judges.
The u.S. Supreme Court is urged to weigh in not only on whether its
caselaw in MICHELSON and FRY are binding on the states, but also whether
negative specific act testimony is always a constitutional violation, or
if it can be permitted then so also should positive character
testimony
for which MSgHCourt's holding in MICHELSON is preventing. Either way the
constitutional trial rights of defendants are being impeded wherein it is
withihhfchgoGouft's orbit to aether laao or

Argument:
VII.

RESPONDENT STATE IS IGNORING
THE FEDERAL STANDARD
FOR INEFFECTIVE ASSISTANCE OF QOUNSEL

In both Petitioner s direct appeal and in his Petition for
Writ of
Error Corum Nobis, Petitioner claimed ineffective assistance of counsel.
In both, Respondent State denied him relief. As with the appeal, it is
Page 30

argued that bbth decision1 denials are-nin need of reversal as the Respondent
—i&tate^i-s—§a4dri-ng—to—o-b-s-erve^the—f-ede-ra-1—s-ta-nd-ai?d—of-4JTRT€RLA-NB—1V—WASHING —
TON, and that such a failing to observe the federal standard has unconsti­
tutionally denied Petitioner of the relief sought.
Petitioner's appellate brief (EXHIBIT C8) and pro se supplemental brief
(EXHIBIT C6) both argued for ineffective assistance of trial counsel, which
the Respondent State rejected in its decision (EXHIBIT A4) . Petitioner's
Petition for a writ of error (.e4-)>;alleged ineffective assistance of appell­
ate counsel, which the state denied (A2 and Al). The right to effective
assistance of counsel on a first-tier appeal is guaranteed by the l&th
Amendment. EVITTS V. LUCEY, 469 US 387 (1985); ROE V. FLORES^ORTEGA, Since
. the right to effective asssitance of counsel is essential to due process
in both trial and appeal, the Petitioner is short-changed when the State
refuses to adhere to, and to analyze defects in proceedings by the federal
standard.
New York judges are not shy in divorcing themselves from the federal
standard while endearing themselves to their own state standard, as was
openly discussed in PEOPLE V. STULTZ, 2 NY.3d 277, a case that also adopted
the state standard as their benchmark for determining appellate counsel
Effectiveness. The STULTZ court admitted to retaining their state standard
of "meaningful representation" as was determined in PEOPLE V. BALDI, 54
NY.2d 137 (1981) (constitutional requirements are met when the defense
attoreny provides meaningful representation). The STULTZ court claims -erroneously as this argument will plead -- that the chief distinction
between the state BALDI standard and the federal STRICKLAND standard is
only that the latter proceeds further in requiring the proof of prejudice,
which is not a necessary showing under BALDI. We disagree. We find BALDI
fails to review

assess and evaluate the grievances of claimants as to

their attorney' sodefibient performance and as such "'turns a blind-eye to
Page ;31

counsel's alleged defects, instead focusing on what counsel did right.
Such—a—st-andardsrdoes—not—evadniiate^Lneffecrtlveness-, nor does it protect-----

criminal defendants from defective performance. Rather the BALDI standard
merely protects and insulates state attornies at the expense and frustra­
tion of the constitutional rights of criminal’defendahts/appellants. New
York and its BALDI meaningful representation standard is not just at odds
with the federal STRICKLAND standard, it is being deployed by the State
to frustrate and impede the detection and correction of actual ineffectivness of counsel.
In Petitioner's direct appeal, Respondent Appellate Division invoked
the state meaningful representation standard in its rejection of appellate
counsel's ineffective assistance claims. See EXHIBIT Aft, page 5. Therein
the appellate court quoted PEOPLE V. HACKETT, 167 Ad.3d 1095: "In general,
a defendant's constitutional right to effective representation is met so
long as the evidence, the law, and the circumstances of a particular case,
viewed in totality, reveal that the attorney provided meaningful representation." Such a standard looks at the positive, not at the negative, an
important distinction setting it apart from STRICKLAND V. WASHINGTON, 466
US 668 (1984). Petitioner argued this point in his CPL 440-slO motion, a
pro se submission (EXHIBIT CIO, p.__), wherein he pointed out that the
State standard in HACKETT and BALDI seems to confuse the right to effect­
ive counsel with the very distinct right to procedural due process:
"The actual text, in the defendant's eyes, is not whether the
counsel gave an opening and summation, and asked questions ...
but was the quality and adversarial expectations met; was the
available evidence and witnesses introduced to the jury, was
the defendant's position properly articulated -- was thergoadroadmap and was the roadmap followed."
The federal standard in STRICKLAND is an objective test, not one based in
subjective "meaningfulhess." STRICKLAND demands reasonablness under prevailing norms for which a showing of prejudice alongside evidence of defPage 32

icient;conduct. The difference is that the state test looks for positive
ae-ts on th-e pa-r-t of—the—counoeT—(-was—his—tenth—brushed—and—hair—combed-)—
while ignoring defects and omissions including those that may have veered
from norms (as here, did he make typical objections like to dismiss when
the prosecution ended its case, or in asking for limited instructions when
prior bad acts were introduced -- both as argued in the appellate brief).
In asking the wrong questions, the state court reaches.the wrong answers.
The State, it is presumed, may still apply its own state standard but only
after it applies the federal standard when federal rights are alleged to
have been violated. Because the state ignores the federal standard, the
Petitioner has not received a meaningful appeal and his claims to an unconstitutional trial and verdict remain.
Of scandal, the respondent state's BALDI standard gives free license
to appellate courts to merely rubberstampritrial verdicts so long as counsel
showed up for work (see for instance PEOPLE V. BENEVENTO, 91 NY.2d 828
(1985) where meaningful representation was equated with reasonable compe­
tence) . For a court charged with detecting errors and defects (CPL 470.15)
the state standards it adopts seems to go far out of their :way to avoid
finding defects and errors — which is perhaps the point when the State
is focused on the state standard of finality, and not on protecting the
rights of defendants as is what the right to an appeal should be all about.
The natural conclusion is that in New York the so-called right to appeal
is in-name only, that the entire apparatus of judicial hierarchy and proceedingsiis just for show, a mere procedural pass-through because the
courts, its presumptions, and its standards are not concerned with whether
the constitution'and its safeguards governed justice but merely will the
public think so.
The Court is asked to take its own review of the State standard in
use by New York and decide whether, as Petitioner alleges, such standard
/

Page 33

is inimical and inhospital to the STRICKLAND standard
as recognized by
fedexai—1-awT-Thc-fact that
persons a right to

an appeal and are tying up defendants in state court
proceedings until their
state attempts at overturning or pleading a wrongful
conviction/imprisonment keeps a defendant from exercising the right of
federal habeas coppus should require
a state court to utilize the federal
standards, if the State court is not utilizing the federal
standards then
criminal defendants should be permitted to
access the federal courts sooner
guaranteed by the Constitution are not endlessly
unnecessarily frustrated or subverted.

Argument:
VIII.

LACKS appropriate SAFEGUARDS
e°R securing the rights of appellants
AS EVIDENCED by an inability to pot TGF
INEFFECTIVE ASSISTANCE OF APPELLATE COUNSEL

"Every defendant has a fundamental right to appeal his
conviction
and that, accordingly basid fairness and due
process require that the
right not be dissipated.
PEOPLE V. MONTGOMERY, 24 NY.2d 130 (1969). "Corum
Nobis was enlarged to include claims premised on the loss of
a defendant's
right to a first-tier appeal, or a lack of
a meaningful review on that
direct appeal from the
conviction caused by counsel's deficient legal per­
formance" PEOPLE V. DERONZZIO, 14 NY.2d 732 (1964).
If New York is committed to "every defendant s i.±i;ght to appeal then it
must seriously do some
reform beginning with its
policing and responses to claims of ineffective
appellate counsel-.
Justice Thomas rightfully observed

in SMITH V. ROBBINS, 120 SCT 746

that the constitutional right to appeal established in GRIFFIN
V. ILLINOIS
applies equally to all
post-conviction proceedings. By Petitioner
supplemental brief the appellate Court received
knowledge that Petitioner had serious concerns with the appellate
process.
Page 34

The

mere fact alone that Petitioner went to the extraordinary step to

-file a -piro~s~g

mlscon-

duct undermining the verdict -- should have clued the appellate court into
defects and errors by which they have the legal and moral obligation to
detect and resolve* The Court did not take action.
Petitioner then filed a Leave application with the NY Court of Appeals
(EXHIBIT C5) highlighting problems with the appeal process including those
wherein the appellateccourt ran amok from its own rules to find findings
in the record that does not exist in the record (see SUPRA). Petitioner
raised 19 new objections in his Leave application, but for which his appl­
ication was denied. There was no opinion, no thoughtful analysis; rlothing.
Petitioner also filed a Petition seeking a writ of error corum nobis.
Petitioner wrote the appellate court in such a petition that "appellate
counsel's papers did not reach a level of performance sufficient to satisfy
an objective standard of reasonableness, particularly since Petitioner wa
able to identify 19 issues of law in his application for leave not raised
by Appellate counsel." He also argued that there were "extensive errors
and omissions that occurred in the defendant-petitioner's May 2016 trial
• • •

that were not argued on appeal" (EXHIBIT C3, para. 9). Just as with

the Leave application above, the denial decision to Petitioner's writ of
error petition was totally silent. There was no opinion, no thoughtful
analysis; nothing.
State law places strict time limits on appellate procedures, and yet
when a pro se defendant struggles to meet these deadlines because appellate
counsel will not turn over the casefile and the Court is;notified -- again
the litigant receives nothing in response. It may be dicta, but Justice
White's wisdom in McMAMN v. ..RICHARDSON, 90 S.Ct 1441 should resonate, ’
"Judges should strive to maintain proper standards of performance by attor­
neys." In EXHIBIT D4 are four of the letters Petitioner wrote his retained
Page 35

but now dismissed appellate attorney in the months following his July 2019
appellate denial asking counsel to send“~him Tcffij) casefite-for purposes of
filing pro se leave requests/ One of these letters was addressed to the
Clerk of the NY Courtt of Appeals wherein Petitioner stated:
"I am experiencing difficulty in obtaining my file from my
appellate attorney to whom I have been writing repeatedly
... I hope this Court might assist me in having an Order
issued."
Note that this same letter was written regarding Petitioner's pending Leave
to the NY Court of Appeals, a purpose the casefile would have been helpful
for.
Also included in EXHIBIT D4 is a letter written of the Trial Judge
"declining to sign an order" mandating the transfer of the casefile so
that Petitioner might write his CPL 440-motion (the very document that
Appellate Counsel was ineffective for not first filing prior to the appeal).
Under New York law, casefiies belong to clients. SAGE REALTY CORP. V.
PROSKOVER ROSE GOETZ & MENDELSOHN LLP, 91 NY.2d.30 (under settled law an
attorney's former client is presumptively entitled to inspect and copy any
documents which relate to its representation and are in counsel's possession
including attorney work product); PALIN V. WISEHURT & KOCH 2002 WL 1033804
(SDNY 2002).= $A client should be granted full access to his attorney's
file including work product). Unable to get assistance from either court
with supervision and oversight over the case, Petitioner was forced to
bring suit in the State Supreme Court for conversion and replevin (see
EXHIBIT D2). Such extraordinary measure was necessary because the State
lacks adequate procedural remedies for ensuring that pro se clients have
the r
the recources and records they need to pursue post-conviction appeals and
claims in furtherance of their constitutional rights.
"The failure of appellate attorney to transfer his casefile," Petitioner
wrote on page 32 of his pro se CPL 440-motion, "prevents the defendant from
outlining the:.full reconstruction of how defense counsel..." noting also an
Page 36

page 162 of the same motion (hdre, EXHIBIT CIO) that the casefile includes
-"a—Gopi-us—amoun-t—o-i^-doeumen~t-s—that—conf-i-rm—a-nd--expand~-upon--defen&e—conn? ' ~Ls~
failings. Without the casefile, Petitioner was forced to submit all the
forementioned documents to the Court, and when assistance was sought from
the Court no assistance was forthcoming®!In the broader picture, New York
State claims to have a fundamental right to appeal, but the State will not
take any measure to protect that right. The State's bifurcated procedures
limit and exclude what issues and records can be scrutinized on appeal.
The State's caselaw restricts courts from considering evidence that is
dehors the record, even in defiance of statutory authority to intermediate
courts to detect errors (CPL 470.15). When the courts do exercise such
discretion it is not to expand the appeal record for the sake of appellants
but to "find" and manufacture reasons to correct the transcript of lower
courts® The State does not follow federal law on character testimony or
on mandated pejudicial effect assessments. The State ignores the federal
standard of attorney effectiveness, and when asked to intervene to assist
an appella/#^ with obtaining a casefile to argue ineffective counsel, inter
alia, the Court instead ignores the appellant the presumption of correctness
that federalllaw entitles him. There comes a time when the curtain needs
to be drawn back to reveal what layrbfehind it. There is no right of appeal
in New York.State. Instead there are empty mechanical processes by which
appellantssare required to pass through in the name of due process so as
"exhaust" roadblocks that euphenisms call "remedies."
Located in EXHIBIT A7 is a decision denying the Petitioner federal
habeassrelief and specifically the right to be out on bail while the State
appellate machinery grinds and turns with no end in sight. The federal
court decision dismisses Petitioner's plea for habeas relief without prej­
udice in essence noting that "sta,te court remedies are available to him"
(page 4). We disagree, arguing that the "remedies" are substantively hollow
Page 37

and stsEile by design. IE is argued that New York State does not meet the
mimumitn—lev^l—of—^ppe-l-late—cronsti-tutional-it

^y—as—a-rgu e d-he-rei-n^—to—j-us-t-i-fy

suspending the Writ of habeas corpus or otherwise allowing federal courts
to enforce Petitioner's federal rights. This Petition for certiorari asks
the U.S. Supreme Court to evaluate what level
are owed when their constitutional rights are violated by state governments,
and a right to appeal-in-name-only is meted out by the said State in such
a way as is New York's that the very aim of scrutinizing a verdict for error
and constitutional defect is not followed, but subjected to perpetual frus­
tration. |Must a wrongfully convicted person exhaust all state "remedies,"
wheriiarbehemoth state shows no regard for constitutional rights in its
proceedings, prior to seeking redress from a federal court in curtailing or
curbing state judicial despotism? If New York State had not professed to
have and make available to its convicted population a right to appeal, there
would be no question of a convicted person having access to the federal
courts to argue wrongful conviction/imprisonment. Such access implies.a
federal right of appeal, something that argument in,..EXHIBIT D6 claims is
fully compatible with the Constitution in light of the mindset of the men
who ratified it, and adopted its Bill of Rights . Just because New York
State chose in 1969 to grant a state right of appeal to its convicted does
not and should not " suspend" federal review and enforcement of those rights
when New York State does not adequately and effectively police itself, its
procedures, its bench, its bar, and it's presumptions, standards, and alignment with federal law. Comity and federalism concerns should not trump:the
guarantee of the Bill of Rights and the 14th Amendment to its citizens. A
State that violates its citizen's rights is an atrocity; what is worse is
when the same state claims to have a system of review and correction, but
deploys it to..contravene those rights; and the federal government lets it.
This Petitioner's study of U.S. history thought that was why the 14th Amend­
ment was passed, and earlier the Writ of Habeas Corpus^
Page 38

ARGUMENT IX

NEW YORK LACKS MINIMUM
APPELLATE PROTECTIONS AT THE TRIAL LEVEL
--------LNGtUDT-NG—LAX—AND—MANI-P-ULA-TEABLE------SYSTEMS FOR PRESERVING THE TRIAL RECORD

The Due Process Clause of the 14th Amendment entitles criminal defendents access to their trial transcript as a minimal procedural safeguard
for pursuing appeals. LANE V. BROWN, 372 US 477 (1963); ANDERS V. STATE OF
CALIFORNIA, 386 US 738 (1967). Trial transcripts are "necessary for him to
have some record of the proceedings in order to prosecute his appeal prop­
erly." ESKRIDGE V. WASHINTGON STATE BD, 357 US 214. Due process requires
that an appellant "will have, at the very least, a transcript or other rec­
ord of the trial proceedings." ROSS V. MOFFITT, 417 US 616. Such a right
is denied to the Appellant when, as here, the trial judge routinely goes
off-record and the stenographer fails to record trial business leading to
a defective transcript with more holes than Swiss cheese.
New York requires that "complete stenographic notes [are] to be take10
Each stenographer ... must take full stenographic notes" (Judiciary Law,
Art. 2, Sec. 295). And yet, the Court Reporter frequently did not transcribe
dialogues at the Bench or in chambers, often at the direction of the trial
judge. See Appendix D9, a grievance made to the state's Commission on
Judicial Conduct which was rejected for lack of oversight over trial judges,
for a detailed description of the voids and omissions caused to the Petit­
ioner's transcript). Each of these voids, ommissions, and abnormalities to
the legally required "full stenographic notes" caused prejudice to the
Bqtitioner by diluting and depriving him of otherwise appealable defects to
the trial, violations of his rights and/or support for arguments elsewhere
within the record. Recall that Argument V herein focuses completely on
a hearing that the Appellate Court claims must have happened even though
the transcript does not preserve it, Note also that when Bench conversati
over voiced objections are omitted it causes deficiencies to subsequent
otherwise appealable issues including effectiveness of counsel or prosecutPage 39

■>

orial misconduct, and perhaps even judicial misconduct. While not argued
-herein-,—P-e t-i-t-i-en er-'-s—&P-L—4-4-Gnr-l-0—mo-t-ion—{-App end-i-x—G-1-0-) -argues—tha t—the—tra­
nscript voids covered up judicial misconduct, as does Petitioners' Leave
application (Appendix C5) alleges such covering-up by the Appellate Court.
New York Courts have faced defective transcripts before. "Although...
the absence of a stenographic record does not require reversal absent
prejudice to the defendant

such prejudice will be found where the record

cannotv.be reconstructured, because the defendant will have no way to appeal
the trial court's ruling." PEOPLE V. HARRISON, 85 NY.2d 794. This same
court noted, "the prejudice to the defendant -- impairment of effective
appellate review -- is manifest."
"On account of the trial court's failure to preserve a complete rec­
ord, we know that defense counsel made objections to the prosecutor s que­
stions

but not what those objections were ... defendant lost any means of

appellate review of these rulings." PEOPLE V. DENNIS, 265 Ad.2d 271 (1999).
Appendix CIO lists 13 instances of trial transcript voids (not an exhaust­
ive list), of which eight are voids following an objection where a sidebar
conversation was not preserved. Those 13 documented voids are now perman­
ently lost to the Petitioner, as is also any opportunity for meaningful
appellate review, because the Respondent State does not enforce its laws
for full stenographic notes to be taken, or otherwise require electronic
or digital recordings. The rights of criminal defendants, like the Petite.
ioner,are therein impacted

as dity.affacts; appellatevreview..if not also

right to a public trial.
The failure of a state that offers criminal defendants the right of
appellate review but fails to preserve that right by enforcing laws or
requiring full recordings of procedures also impacts the federal rights
of defendants under the Constitution's habeas protection. Either
both justify a federal response.
This Petition for a Writ of Certiorari sfroul
Respectfully Submitted,
N.

if not

CONCLUSION
be granted.
Page 40
jL , Michael N. Kelsey 2/5/21

